<html>
<title> - RESULTS OF SECURITY INSPECTIONS AT THE DEPARTMENT OF ENERGY'S LAWRENCE LIVERMORE NATIONAL LABORATORY</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
RESULTS OF SECURITY INSPECTIONS AT THE DEPARTMENT OF ENERGY'S LAWRENCE 
                     LIVERMORE NATIONAL LABORATORY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 1999

                               __________

                           Serial No. 106-146

                               __________

            Printed for the use of the Committee on Commerce


                     U.S. GOVERNMENT PRINTING OFFICE
58-496CC                     WASHINGTON : 2000






                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)






                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Podonsky, Glenn S., Deputy Assistant Secretary for Oversight, 
      Office of Environment, Safety and Health, Department of 
      Energy.....................................................     7
    Tarter, C. Bruce, Director, Lawrence Livermore National 
      Laboratory; accompanied by: Martin Domagala, Richard 
      Mortensen, Jim Hirahara, Dennis Fisher, Don Wentz, Bill 
      Hensley, John Jones, and Barbara Stone.....................    11
    Turner, James, Manager, Oakland Operations Office, Department 
      of Energy..................................................    19
    Weigand, Gil, Deputy Assistant Secretary, Strategic Computing 
      and Simulation, Department of Energy.......................    17

                                 (iii)

  


RESULTS OF SECURITY INSPECTIONS AT THE DEPARTMENT OF ENERGY'S LAWRENCE 
                     LIVERMORE NATIONAL LABORATORY

                              ----------                              


                         TUESDAY, JULY 20, 1999

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Burr, Bilbray, 
Ganske, Blunt, Bryant, Klink, Stupak, Green, McCarthy, 
Strickland, and DeGette.
    Also present: Representatives Norwood and Shimkus.
    Staff present: Tom DiLenge, majority counsel; and Reid 
Stuntz, minority staff director and chief counsel.
    Mr. Upton. Good morning, everyone. The subcommittee will 
come to order.
    The subcommittee is meeting this morning to hold a hearing 
on the results of recent security inspections at the DOE's 
Lawrence Livermore lab. After members and witnesses have been 
recognized for opening statements, the Chair will make a motion 
to hold the remainder of the hearing in executive session. The 
Chair will recognize himself for an opening statement.
    This hearing is a continuation of a classified briefing 
held for members 3 weeks ago on the results of a recent DOE 
inspection of security at Lawrence Livermore. While that 
briefing certainly was illuminating, the ability of members and 
staff to question the witnesses, many of whom are here again 
today, was limited by the Department's decision to withhold the 
inspection report and related documents from the committee 
prior to that briefing.
    Now that we do have the necessary materials and have had a 
chance to review the inspection report in detail, we have 
called today's hearing to dig deeper into some of the issues 
raised by this recent inspection. While much of what we discuss 
today will be classified and thus discussed behind closed 
doors, some of what we have learned so far is unclassified and 
can be and should be discussed publicly. In particular, those 
issues that bear on the seeming inability of the lab and 
Department to conduct effective security management and 
oversight, to provide accurate information about the state of 
security to policymakers in the Department, the White House and 
certainly in the Congress, and to take prompt and effective 
corrective actions with respect to identified vulnerabilities.
    For example, there are numerous references in the recent 
inspection report to past findings of a similar serious and 
recurring nature, findings that went uncorrected for years. In 
other cases, the lab and Department field offices failed during 
their own security reviews to identify serious issues found by 
the recent independent inspection team and apparently did not 
even evaluate some significant areas of potential security 
concern.
    In still other cases, the lab and field office security 
assessments did reveal vulnerabilities similar to those 
identified by the outside inspectors, but either corrective 
action was not taken or the program officials determined that 
the risk was somehow acceptable; that is, until the independent 
inspectors recently put this unwanted spotlight on these 
issues. Despite the recurrence of unresolved deficiencies year 
after year, we have found that Livermore has never been 
financially penalized for these significant security problems 
by the Department in its annual performance evaluations, at 
least not in recent memory.
    But even if Livermore had been given unsatisfactory 
security ratings by its Department managers, security measures 
impact only a very small portion of the financial performance 
fees that the lab can receive under the current contract. I 
believe that without a closer link between security performance 
and financial performance, lasting change at Livermore and 
elsewhere in the DOE complex will continue to prove elusive.
    Finally, we have also learned from this recent Livermore 
inspection that we cannot always believe what we hear about the 
status of security reforms at the Department. In particular, 
the lab directors and Secretary Richardson announced with much 
fanfare back in March a 9-point plan to undertake ambitious 
computer security upgrades on an even more ambitious timetable, 
reaching significant milestones within 30 days. And we were 
told in mid-April that those milestones were reached or would 
be reached within those 30 days, permitting these computer 
systems to be brought back on line with enhanced security.
    Yet now we find that not only did Livermore fail to reach 
some important milestones as claimed, but that the lab thought 
it didn't really need to do what it had promised to do. And we 
found out as well that some of what the lab directors and 
Secretary Richardson promised would be done simply is not 
technologically feasible at this time and certainly not within 
the 30 days, which causes us all to worry that either they do 
not know what they are talking about, or they are more 
interested in the sound of the message than the reality of 
computer security.
    I hope to explore these and related topics in detail after 
we move into closed session. But I want to let the American 
people know that this committee will continue to press the 
Department and its labs, including Livermore, to make the 
necessary changes to improve their security. And we will 
continue to dig behind the rhetoric to unmask the reality so 
that policymakers in both the executive and legislative 
branches have accurate information upon which to make reasoned 
policy judgments in this area.
    I thank our witnesses for appearing before this committee 
today, and I will recognize the ranking member, Mr. Klink.
    [The prepared statement of Hon. Fred Upton follows:]
   Prepared Statement of Hon. Fred Upton, Chairman, Subcommittee on 
                      Oversight and Investigations
    Today's hearing is the continuation of a classified briefing held 
for Members three weeks ago on the results of a recent internal 
Department of Energy inspection of security at Lawrence Livermore 
National Laboratory. While that briefing certainly was illuminating, 
the ability of Members and staff to question the witnesses--many of 
whom are here again today--was limited by the Department's decision to 
withhold the inspection report and related documents from the Committee 
prior to that briefing. Now that we finally have received the necessary 
materials and have had a chance to review the inspection report in 
detail, we have called today's hearing to dig deeper into some of the 
issues raised by this recent inspection.
    While much of what we discuss today will be classified and thus 
discussed behind closed doors, some of what we have learned so far is 
unclassified and can and should be discussed publicly--in particular, 
those issues that bear on the seeming inability of the lab and the 
Department to conduct effective security management and oversight, to 
provide accurate information about the state of security to policy 
makers in the Department, the White House, and in Congress, and to take 
prompt and effective correction actions with respect to identified 
vulnerabilities.
    For example, there are numerous references in the recent inspection 
report to past findings of a similar, serious, and recurring nature--
findings that went uncorrected for years. In other cases, the lab and 
Department field offices failed, during their own security reviews, to 
identify serious issues found by the recent independent inspection 
team, and apparently did not even evaluate some significant areas of 
potential security concern. In still other cases, the lab and field 
office security assessments did reveal vulnerabilities similar to those 
identified by the outside inspectors, but either corrective action was 
not taken or the program officials determined that the risk was somehow 
acceptable--that is, until the independent inspectors recently put this 
unwanted spotlight on these issues.
    And, despite the recurrence of unresolved deficiencies year after 
year, we've learned that Livermore has never been financially penalized 
for these significant security problems by the Department in its annual 
contract performance evaluations--at least not in recent memory. But 
even if Livermore had been given unsatisfactory security ratings by its 
Department managers, security measures impact only a very small portion 
of the financial performance fees that the lab can receive under the 
current contract. I believe that, without a closer link between 
security performance and financial performance, lasting change at 
Livermore and elsewhere in the D-O-E complex will continue to prove 
elusive.
    Finally, we've also learned from this recent Livermore inspection 
that we can't always believe what we hear about the status of security 
reforms at the Department. In particular, the lab directors and 
Secretary Richardson announced with much fanfare back in March a Nine 
Point Plan to undertake ambitious computer security upgrades on an even 
more ambitious timetable--reaching significant milestones within only 
30 days. And we were told in mid-April that those milestones had in 
fact been reached or would be reached within those 30 days, permitting 
these computer systems to be brought back on-line with enhanced 
security.
    Yet now we find out that not only did Livermore fail to reach some 
important milestones as claimed, but that the lab thought it didn't 
really need to do exactly what it had promised to do. And we find out, 
as well, that some of what the lab directors and Secretary Richardson 
promised would be done simply is not technologically feasible at this 
time or certainly not doable within 30 days--which causes me to worry 
that either they don't know what they are talking about, or they are 
more interested in the sound of the message than the reality of 
computer security.
    I hope to explore these and related topics in detail, after we move 
into the closed session. But I want to let the American people know 
that this Committee will continue to press the Department and its labs, 
including Livermore, to make the necessary changes to improve their 
security. And we will continue to dig behind the rhetoric to unmask the 
reality, so that policy makers in both the executive and legislative 
branches have accurate information upon which to make reasoned policy 
judgments in this area.
    I thank our witnesses for appearing before this Subcommittee today, 
and I will now recognize Ranking Member Klink, for an opening 
statement.

    Mr. Klink. Thank you, Mr. Chairman for holding this follow-
up hearing. This committee was responsible for the 
establishment of the Office of Security Evaluation back in the 
late 1980's because of previous security crises at the Nation's 
weapons facility. Yet the Congress and the country has been 
rocked again by allegations that year of espionage and poor 
security of all types at the Nation's weapons laboratories. 
Both the Rudman report and internal reports from the Department 
of Energy have made it clear that security directives, even 
when issued by the President of the United States, were ignored 
and even flaunted by the laboratories and their scientists.
    Senator Rudman spoke eloquently of the arrogant culture of 
the laboratories but, inexplicably, he didn't think that the 
contractors who run the facilities were responsible for 
security, although their contracts specifically do give them 
those jobs. All we have to do is look at Dr. Tarter's testimony 
today to find out who is in charge. Dr. Tarter magnanimously 
states that he is committed to DOE, that he will fund and 
implement the Secretary's 9-point information security action 
plan. Until reading his testimony, I didn't know Dr. Tarter had 
that choice.
    One of the key questions I hope that we can answer today, 
and I want to ask him, is whether Lawrence Livermore's contract 
gives the University of California the responsibility and the 
budget for providing security for the Nation's weapons secrets, 
and if he has ever been hindered by the Department from 
carrying out those responsibilities. Then I want to ask if he 
considers that this is an optional responsibility, depending on 
whether or not he would like to carry it out.
    Surprisingly, the response in Congress to these new 
allegations has been to propose legislation to give the 
laboratories, the field offices that directly supervise them, 
and the Defense Programs operation more independence and lack 
of oversight than ever before. The Assistant Secretary for 
Defense Programs, who was finally asked to resign a few weeks 
ago, last week came before another House committee and said 
these problems were everyone's fault, but mostly they were not 
his. He was praised for his fine work. This is the same person 
who, according to testimony in the Senate by Notra Trulock 
earlier this year, stopped Mr. Trulock in 1997 from briefing 
former Secretary Pena about alleged spying at Los Alamos 
because it might have a negative effect on his budget request.
    Nothing we have heard in our recent hearings gives any 
indication that these changes will have the desired long-term 
effect in security, safety, or in any other areas. Last week in 
the committee's hearing on the reorganization of the Department 
being proposed by various congressional committees, a variety 
of experts stated that these reorganizations would very 
possibly make the accountability situation worse than it is 
now. This can only have a negative effect on security efforts.
    Two weeks before that, we held a hearing on radiation 
safety enforcement security at DOE weapons facilities, at which 
Lawrence Livermore Laboratory was prominently featured because 
of the assessment of the largest fine in history of the 
Department for safety violations. And, again, there was great 
frustration expressed by the Department's enforcement staff 
because of the recalcitrant attitude of the laboratory and the 
failure of the field offices to force change.
    The historically poor state of security at Lawrence 
Livermore's laboratory is more than evident from the lab 
director's testimony today of all the steps he is now taking to 
improve security. I must ask why these actions were not taken 
years ago. I look forward to obtaining a clear statement from 
Lawrence Livermore and the University of California of their 
responsibility for maintaining adequate security. Then perhaps 
the next time this happens, perhaps the Congress will not fool 
itself about where the blame should lie.
    With that, Mr. Chairman, I yield back my time.
    Mr. Upton. Are there other members seeking to give an 
opening statement?
    Mr. Burr. Mr. Chairman, just a brief one. I thank the 
chairman and I thank our witnesses for returning and for the 
addition of other ones. Let me suggest to you today that as we 
have looked at this, three things have popped up: culture, 
contractors and complacency, and I think those are the three 
areas that we need to deal with.
    Culture, something that was not a factor over the last 12 
months but possibly 12 or 20 years, the culture that has to be 
changed, and that in fact the inspectors have recognized and 
highlighted as one of the challenges that they have.
    Contractors. From a standpoint that these in many cases are 
projects that have never been bid, we have to look at the 
relationship of the contract. We have to look at certain areas 
of the contract. One very glaring thing in your public 
statement, Mr. Tarter, is that you refer to the marginal rating 
in materials and control and accountability as in the Annual 
Report to the President. Yet the report to the President under 
materials control and accountability is unsatisfactory. 
Marginal and unsatisfactory are completely different, by 
definition, but I think this gets at the heart of the cultural 
and the complacency problem, that we read them as in fact the 
same. Complacency not only by contractors, but DOE, about a 
sense of urgency of addressing things that deal with national 
security, deal with security of any corporation about secrets 
or about sensitive material that they have.
    I am hopeful that as we move through this, Mr. Chairman, 
that in a bipartisan way we can work with inspectors to make 
sure that we have an accurate way to gauge in the future not 
only our progress but our success at maintaining the safeguards 
and securities that are needed.
    I thank the chairman for the time and I yield back.
    Mr. Upton. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. I will be brief. Mr. 
Chairman, we have had a number of hearings on this whole 
situation, and I think back to the April 20 hearing in which we 
talked about the real fundamental problem is the lack of 
accountability; that when things happen we, the U.S. 
Government, are not holding people accountable. And I think 
that if we would do that, then these things would not recur 
with such frequency.
    Let me go back to what we have learned. We have had these 
concerns brought up in 1976, 1982, 1988, 1992, 1997, and now 
1998 and 1999. And we always get assurances things will be 
different, but they never are. They never are.
    From the chairman's comments to Ranking Member Klink, to 
everybody here, they are frustrated and really not quite sure 
what we should do. So I think we should go back to our 
fundamental problem here, which is lack of responsibility and 
accountability.
    So why we ever approved another 5-year extension for 
Livermore Lab is beyond me. I think we should start with 
accountability and responsibility and pull that contract today. 
Maybe then--maybe then people will understand we are serious 
about this. I am not trying to pile on anyone, but I am just as 
frustrated as anybody up here, and if we are really going to 
have accountability and responsibility, then let us begin by 
pulling that contract.
    I yield back my time, Mr. Chairman.
    Mr. Upton. Other members? Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I just want to follow 
up on my colleague from Michigan's point. I believe that the 
only way you can change the corporate culture is you remove the 
people who are established in the culture of whatever, the 
corporation, and we just don't do that. And some are the rules 
that we have put in place protecting employees or contractors.
    I would like to see swift change in that and I agree with 
my colleague from Michigan that we ought to--this is something 
we ought to micromanage for a while through yearly contracts, 
and I am willing to be involved in that. We have had enough, 
and I think the displeasure of Congress is going to be felt. I 
yield back the balance of my time.
    Mr. Upton. Other members?
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you, Mr. Chairman. Today's hearing is the continuation of 
what I promised back in March. At that time, I promised that, in light 
of the breaking reports about lax security at our nuclear weapon labs, 
this Committee would take a long, hard look at security at each of the 
major Department of Energy nuclear facilities, whose general management 
falls within this Committee's primary jurisdiction.
    But well before this recent security scandal, I directed Committee 
staff to work with the General Accounting Office to re-evaluate the 
status of security at these facilities. I did so because of the 
Department's poor history in implementing lasting reforms--the last 
wave of which occurred in the early 1990s under then-Secretary Watkins. 
That G-A-0 review is still underway, and today's hearing will 
complement that work by providing very timely information about one 
particular and troublesome lab--Lawrence Livermore National Laboratory 
in California.
    Let me state at the outset that Livermore is not being singled out 
by this Committee for criticism. Nor do I believe it is the worst 
offender. But Livermore was the first of the major labs to receive an 
internal security inspection following the Department's claims of major 
security reforms. Despite all of the high-profile attention that this 
topic has received at Livermore and across the D-O-E complex since 
earlier this year, Livermore simply did not hold up well under this 
latest scrutiny. While we cannot discuss the specifics of the report's 
findings in this open session, I can say that some of them are simply 
stunning--and have left me scratching my head, wondering how on earth 
things like this could have been happening for so long at a nuclear 
weapons lab without someone standing up and saying ``this must stop.''
    Well, let me say that this, indeed, must stop. It is clear to me 
that, without aggressive and sustained internal and external oversight, 
Livermore will never fully correct these deficiencies, and I hope that 
this Committee's efforts to shine a spotlight on Livermore's troubles 
will assist those within the lab and the Department who truly want to 
achieve reform rather than just talk about it.
    I understand that the Department's internal inspection team is 
currently reviewing Sandia National Laboratory and plans to inspect Los 
Alamos in the near future as well. I expect that we will hold similar 
hearings on the findings of those inspections, too. I hope that the 
Committee will not have to be prevented from gaining timely information 
about those inspections as it was with respect to the Livermore report. 
It troubles me that the Department forced excessive delays and my 
issuance of subpoenas to secure important materials for today's 
hearing.
    This Committee has the absolute right to gain real-time and candid 
information about security at the Department's facilities. I am not 
interested in DOE whitewashing, defensive posturing, or the 
Administration's ``all is now well'' spin. And I intend to continue to 
take whatever steps are necessary to secure security information in a 
timely fashion. If the Secretary needs to rearrange his schedule to 
keep one step ahead of this Committee's work, that's fine with me--I 
don't know what other issue could be more important to him right now 
anyway. But I certainly won't let the Department continue to delay our 
review of this matter, which is of pressing concern to our Nation's 
security and to the American public.
    Thank you, Mr. Chairman, for your continuing focus on this matter.

    Mr. Upton. Okay. If not, if there are no further opening 
statements, the Chair will recognize our witnesses: Dr. Gil 
Weigand, Deputy Assistant Secretary for Strategic Computing and 
Simulation at the Department of Energy; Mr. Glenn Podonsky, 
Deputy Assistant Secretary for Oversight, Office of 
Environment, Safety and Health at Department of Energy; Dr. 
James Turner, Manager of the Oakland Operations Office at the 
Department of Energy; and Dr. Bruce Tarter, Director of 
Lawrence Livermore National Lab.
    I think all of you are aware that this subcommittee is an 
investigative subcommittee and, as such, we have always had the 
long-term practice of taking testimony under oath. Do any of 
you have objection to doing that?
    We also advise you that each of you, under the Rules of the 
House, you are entitled to be advised by counsel. Do any of you 
have desire to be advised by counsel?
    If not, in that case if you would stand and raise your 
right hand, and also, I guess, include the folks that may be 
testifying with you later on.
    [Witnesses sworn.]
    Mr. Upton. You are now under oath and you are now allowed 
to give, hopefully, a 5-minute summary of your written 
statement and we will start with Mr. Podonsky. Welcome back.

TESTIMONY OF GLENN S. PODONSKY, DEPUTY ASSISTANT SECRETARY FOR 
OVERSIGHT, OFFICE OF ENVIRONMENT, SAFETY AND HEALTH, DEPARTMENT 
   OF ENERGY; C. BRUCE TARTER, DIRECTOR, LAWRENCE LIVERMORE 
 NATIONAL LABORATORY; ACCOMPANIED BY: MARTIN DOMAGALA, RICHARD 
    MORTENSEN, JIM HIRAHARA, DENNIS FISHER, DON WENTZ, BILL 
  HENSLEY, JOHN JONES, AND BARBARA STONE; GIL WEIGAND, DEPUTY 
   ASSISTANT SECRETARY, STRATEGIC COMPUTING AND SIMULATION, 
   DEPARTMENT OF ENERGY; AND JAMES TURNER, MANAGER, OAKLAND 
            OPERATIONS OFFICE, DEPARTMENT OF ENERGY

    Mr. Podonsky. Thank you, Mr. Chairman. I appreciate the 
opportunity to again appear before the committee to discuss the 
Office of Independent Oversight and Inspection of the Lawrence 
Livermore National Laboratory. Just for clarification, I am now 
the director of the newly created Office of Independent 
Oversight and Performance.
    As you know, we provided a classified briefing to members 
of this committee on July 1 on the results of our May 1999 
inspection of safeguards and security programs at the Lawrence 
Livermore National Laboratory. At the briefing, we also 
provided copies of the classified inspection report.
    At this time, I would also like to introduce Ms. Barbara 
Stone who is sitting behind me, who is the Director of the 
Office of Security Evaluations. Ms. Stone was unable to appear 
at the July 1 briefing as she was away on a much needed 
vacation. At that briefing we had Mr. John Hyndman, who is now 
engaged in the inspection of Sandia National Laboratory where 
Ms. Stone and I will be proceeding immediately following this 
hearing.
    For the benefit of those who were unable to attend the July 
1 briefing, I would like to provide some background on who we 
are. My office is responsible for providing the Secretary an 
independent, impartial view of the effectiveness and safeguards 
of security, cybersecurity and emergency management policies 
and programs throughout the Department of Energy. The Office of 
Security Evaluations which performed the inspection at Lawrence 
Livermore National Laboratory is one of the three offices that 
report to me.
    As you may recall, the Office of Security Evaluations was 
originally established in 1984 to provide the Energy Department 
an independent assessment on the effectiveness of safeguards 
and security policies and programs throughout the Department. 
Congressman Dingell and Congressman Bliley were instrumental in 
the formation of that office.
    As part of Secretary Richardson's recent effort to 
strengthen independent oversight of safeguards and security, 
the Office of Independent Oversight and Performance has now 
been elevated to report directly to him.
    Now, I would like to take a minute to provide an 
unclassified summary of the May Livermore inspection. Our 
overall conclusion was that improvements were being made at 
Livermore but significant weaknesses remained to be addressed. 
For example, we saw improvements in the intrusion detection 
systems and significant progress to improve classified 
information on computer systems. However, we identified 
weaknesses that warrant continued attention in a number of 
areas. One of the weaknesses involved inadequate vulnerability 
assessments of the Superblock which is the area at Livermore 
where special nuclear material is used and stored. We also 
noted weaknesses in some aspects of Livermore's ability to 
accurately measure some types of nuclear materials. Other 
weaknesses were evident in Livermore's programs for protecting 
classified and sensitive information.
    We identified weaknesses in their methods for storage of 
classified parts and some of the control of access areas 
containing classified matter. We were also concerned about 
foreign nationals being able to access Livermore unclassified 
computers through dial-up access. We noted that some aspects of 
the 9-point security plan for cybersecurity, which is a plan 
for improving classified information, required some work. Let 
me emphasize that these weaknesses warrant significant 
attention and require prompt action; however, as I told this 
committee during the briefing on July 1, we believe that the 
responsible line managers which are here today from the Office 
of Defense Programs, the Oakland Operations Office, and 
Livermore National Laboratory, are taking the inspection report 
seriously now.
    Although the formal inspection ended in May, the Office of 
Independent Oversight has continued to follow up on the 
progress to address identified deficiencies. We have been in 
frequent contact with the responsible DOE and Livermore 
managers since the inspection ended. Our follow-up efforts 
indicated that corrective actions are underway. For example, at 
the time of our July 1 briefing to this committee and as part 
of our follow-up, my office sent our inspectors back to 
Livermore to review progress at Superblock in the areas of 
modeling and testing, which is needed to verify the 
effectiveness of the protective strategy and response plan at 
Livermore.
    Since the May 1999 inspection, Livermore has developed and 
is implementing a program of testing and modeling that is 
appropriate for verifying the effectiveness of protective force 
response. Livermore has also placed additional protective force 
personnel in the Superblock to improve response capability 
under the new protective strategy as defined. The Office of 
Oversight will continue to conduct follow-up visits and perform 
independent testing to verify the effectiveness of Livermore's 
corrective actions.
    In summary, I would like to say that the deficiencies at 
Livermore appear to be receding with a high level of management 
attention now. It is clear throughout the DOE management chain 
that the efforts to improve safeguards and security have the 
personal attention and support of Secretary Richardson. While 
not diminishing the significance of the deficiencies identified 
by my inspectors, our follow-up efforts indicate that 
corrective actions are being taken to address the 
vulnerabilities that we have identified.
    As I previously stated on July 1, this has not always been 
the case in our experience at the Department of Energy. We have 
seen countless reports, including many of ours, where plans and 
corrective actions were made with little effect. But we believe 
Secretary Richardson has made and continues to make a 
significant difference. He is a Secretary who is completely 
engaged. This is why we are confident that corrective actions 
will now be taken.
    However, I assure you that the Office of Independent 
Oversight will continue to follow up and make certain that 
these corrective actions are effective. And as I stated in the 
July 1 briefing, we will trust but we will continue to verify. 
Thank you, Mr. Chairman.
    [The prepared statement of Glenn S. Podonsky follows:]
     Prepared Statement of Glenn S. Podonsky, Office of Office of 
 Independent Oversight and Performance Assurance, Department of Energy
    Thank you Mr. Chairman. I appreciate the opportunity to again 
appear before this committee to discuss the recent Office of 
Independent Oversight inspection of the Lawrence Livermore National 
Laboratory.
    I am the Director of the newly created Office of Independent 
Oversight and Performance Assurance. As you know, we provided a 
classified briefing to members of this committee on July 1st on the 
results of our May 1999 inspection of safeguards and security programs 
at the Livermore National Laboratory. At that briefing, we provided 
copies of the inspection report to the Committee.
    At this time, I would like to introduce Ms. Barbara Stone, Director 
of the Office of Security Evaluations. Ms. Stone was unable to attend 
the July 1st briefing as she was away on a much-needed vacation. At 
that briefing, Mr. John Hyndman provided some details on the Livermore 
inspection results. Mr. Hyndman is now engaged in an inspection of 
Sandia National Laboratories as part of our ongoing effort to review 
all three of the major weapons laboratories.
    For the benefit of those who were unable to attend the July 1st 
briefing, I would like to provide some background on who we are. My 
office is responsible for providing the Secretary an independent, 
impartial view of the effectiveness of Safeguards and Security, Cyber 
Security, and Emergency Management policies and programs throughout the 
Department of Energy. The Office of Security Evaluations performed the 
inspection of the Livermore Laboratory. It is one of three offices that 
report to me. As you may recall, the Office of Security Evaluations was 
originally established in 1984 to provide the Energy Department an 
independent assessment of the effectiveness of Safeguards and Security 
policies and programs throughout the Department. Congressman Dingell 
and Congressman Bliley were instrumental in the formation of this 
office. As part of Secretary Richardson's recent efforts to strengthen 
independent oversight of safeguards and security, the Office of 
Independent Oversight and Performance Assurance has been elevated to 
report directly to the Secretary.
    Now, I will take just a minute to provide an unclassified summary 
of the results of the May Livermore inspection. Our overall conclusion 
was that improvements were being made at Livermore, but that 
significant weaknesses remain to be addressed. For example, we saw 
improvements in the intrusion detection systems and significant 
progress to improve the security of classified information on computer 
systems. However, we identified weaknesses that warrant continuous 
attention in a number of areas. One of the weaknesses involved 
inadequate vulnerability assessments of the Superblock, which is the 
area at Livermore where special nuclear material is used and stored. We 
also noted weaknesses in some aspects of Livermore's ability to 
accurately measure some types of nuclear materials. Other weaknesses 
were evident in Livermore's programs for protecting classified and 
sensitive information. We identified weaknesses in the methods for 
storage of classified parts and in some of the controls on access to 
areas containing classified matter. We were also concerned about 
foreign nationals being able to access Livermore's unclassified 
computers through dial up access. We noted that some aspects of the 
``nine-point'' plan, which is a DOE plan for improving security of 
classified information, required work.
    Let me emphasize that these weaknesses warrant significant 
attention and require prompt action. However, as I told you during the 
briefing on July 1st, we believe that the responsible line managers, 
which include the Office of Defense Programs, the Oakland Operations 
Office, and, and the Lawrence Livermore National Laboratory contractor 
management team, are taking the inspection report seriously.
    Although the formal inspection ended in May, the Office of 
Independent Oversight has continued to follow-up on the progress to 
address identified deficiencies. We have been in frequent contact with 
the responsible DOE and Livermore managers since the inspection ended. 
Our follow-up efforts indicate that corrective actions are underway. 
For example, at the time of our July 1st briefing to this committee, 
and as part of our follow-up efforts, my office sent our inspectors 
back to Livermore to review progress at the Superblock in the areas of 
modeling and testing, which is needed to verify the effectiveness of 
the protection strategy and response plan at Livermore. Since the May 
1999 inspection, Livermore has developed and is implementing a program 
of testing and modeling that is appropriate for verifying the 
effectiveness of the protective force response. Livermore also has 
placed additional protective force personnel in the Superblock to 
improve response capability until the new protection strategy is 
determined.
    The Office of Independent Oversight will continue to conduct 
follow-up visits and perform independent testing to verify the 
effectiveness of Livermore's corrective actions.
    In closing, I would like to say that the deficiencies at Livermore 
appear to be receiving a high level of management attention. It is 
clear throughout the DOE management chain that the efforts to improve 
safeguards and security have the personal attention and support of 
Secretary Richardson. While not diminishing the significance of the 
deficiencies identified in our report, our follow-up efforts indicate 
that corrective actions are being taken on the vulnerabilities we have 
identified. As I have previously stated, this has not always been the 
case in our experiences with the Department. We have seen countless 
reports, including many of ours, where commitment, plans, and 
corrective actions were made with little results. But, we believe 
Secretary Richardson has made, and continues to make, a significant 
difference. He is a Secretary who is completely engaged. This is why we 
have confidence that corrective actions will be taken. However, I 
assure you that the Office of Independent Oversight will continue to 
follow-up to make certain that the corrective actions are effective. As 
I indicted at the July 1st briefing, we will trust, but we will verify.
    Thank you again Mr. Chairman, we are now ready for your questions.

    Mr. Upton. Dr. Tarter--by the way, Mr. Podonsky, we did 
want to receive copies of your testimony in advance. Would it 
be possible maybe for one of our clerks to get a copy of your 
opening remarks there, and we will make copies for members here 
in time for the questions. Could someone maybe do that for me?

                  TESTIMONY OF C. BRUCE TARTER

    Mr. Tarter. Thank you, Mr. Chairman. Let me begin with a 
brief statement which is, I think, part of the opening page in 
my testimony. But, as I think all of you know, we are a 
national security laboratory. Nearly all of the work of the 
laboratory is focused on national security. And my particular 
highest responsibility each year is to certify certainly to the 
President of the United States that the United States stockpile 
of nuclear weapons is safe and reliable. That is the focus of 
the laboratory. And obviously being able to carry out 
operations in a safe and secure manner is an essential 
ingredient in making that annual certification to the President 
which we have now been able to make--this year will be the 
fourth year we have formally made that recommendation on the 
weapons in our stockpile.
    To do that, we have three kinds of security at the 
laboratory. There is physical security, there is cybersecurity, 
and there is essentially what I would call personnel security. 
And I think the OSE evaluation focused primarily on physical 
security and cybersecurity, and I will make a comment or two 
about those, and then I will also make an additional comment 
about personnel security, which I think is equally important 
but is not the specific subject of the OSE evaluation.
    In physical security, I think the area which Mr. Podonsky 
has mentioned of greatest concern, and I think to some degree 
of greatest difficulty, is that involving the guarding of 
special nuclear materials. And I think in all of these areas in 
physical security and cybersecurity as well as the personnel 
security, three factors come into play. One, the threat 
changes. The threat evolves. And I think one of the major 
features of the annual OSE evaluation is not to review the same 
set of issues each year, but to engage the threat as it's 
evolving and also technology as it's evolving in order to meet 
that threat.
    In the area of physical security, I think, as Mr. Podonsky 
indicated, that we are focused very well on a plan involving a 
higher level of technology to provide the assurances and 
simulations to guarantee the safety of the special nuclear 
materials. And I think that plan--he described it both in your 
previous hearing, and we are in an iterative process with the 
Department to assure that we will reach closure on that in the 
near future.
    In the area of cybersecurity--and I have testified to this 
in several other hearings in the past months--I think it is a 
complicated area for the U.S. Government. And I think Dr. 
Weigand may in his own testimony--Dr. Weigand is a particular 
expert in this area--make additional comments. This is not a 
simple thing, whether you are the Bank of America, a national 
security laboratory, or perhaps even Congress.
    Technology is evolving very rapidly, and I think this is a 
complex area.
    I believe you, Mr. Klink, asked about our commitment. My 
commitment in the area of cybersecurity goes beyond that needed 
to simply satisfy the OSE evaluation. I think because of the 
high reliance on cyberwork in our programmatic work, as well as 
its high vulnerability as part of intrinsic security, I am 
committed to not just passing the bar, but passing it with a 
significant gap. I think we have to do much better and I think 
we have begun to be engaged with the other pieces of the U.S. 
Government, the National Security Administration, the 
Department of Defense and other areas to try to make the best 
technology fit into cybersecurity.
    Let me remind the committee of one issue which has been 
brought out in the evaluations, but just again to reemphasize--
at Livermore, as is true at other national security 
laboratories, there are two kinds of computers and computer 
networks. There is a classified computer network in which 
almost all of the national security work is done, the design of 
bombs, the assessment of nuclear intelligence from other 
countries, all of those issues. And that computer system has no 
electronic links to any of the unclassified computer systems. 
It can't get there. There is an air gap as big as between your 
desk and mine. There is no way to transmit information between 
those two systems.
    In the area of cybersecurity we have, I think on our own 
but also as a result of the Secretary's strong emphasis in this 
area, reinforced the security of the classified network and all 
of the classified computing.
    In addition, I think we have as part of the 9-point plan, 
as part of the additional measures we have taken, we have taken 
a number of steps to enhance even further the general security 
of the unclassified computer networks. Again, as I think all of 
you know, that is not a technologically simple exercise to do. 
And I think Dr. Weigand may wish to comment on that, but I 
think we are putting major resources and major effort into the 
technology and the interactions necessary to accomplish that.
    The third piece of security at the laboratory involves 
personnel security. And this is a matter of basically having 
the people who work at the laboratory and national security be 
reliable and be trusted people. Now, that is not the job of the 
laboratory, that is the job of the Department of Energy to 
clear them at the proper level. But it is the job of the 
laboratory to basically have a counterintelligence program 
which assesses threats, assesses interactions, and makes 
recommendations on how we can best both train the employees, 
train the system to sense vulnerabilities and to sense the 
threat, and the whole variety of issues that come under the 
word ``counterintelligence.''
    I believe at our laboratory--and it has been put into the 
record in testimony not by people from the laboratory but by 
people from the Department--that we have an excellent, an 
outstanding at some levels, counterintelligence program. And I 
think in many respects, ensuring that that program is on a par 
with the best in the world is equally important to the physical 
and the cybersecurity. And I think we have spent a great deal 
of time in the two standdowns, security immersion things in 
training and educating the people on a threat, on the 
vulnerabilities, which both because of technology and because 
of the evolving world general political structure, are very, 
very different than they were in 1985 or 1990; and that, I 
think, is why I believe the OSE inspections are a healthy 
thing. I think finding issues--an OSE team that could not find 
issues, I think wouldn't be a good OSE team. The laboratory 
that did not have corrective action plans to respond to those 
would not be an appropriate thing. To have a clean perfect 
record is neither testing us nor their system.
    So I believe that process is a healthy process. I think the 
tension is a healthy tension and I think we're engaged in that 
process very well today. And when I made my comment about 
commitment, I think the commitment again is not this year, or 
other years, simply now to pass the bar but to pass the bar 
with a sufficient measure, a gap that in fact it will provide 
confidence in the Congress as well as in the Department that in 
fact the laboratory and its facilities are secure. Thank you 
very much Mr. Chairman.
    [The prepared statement of C. Bruce Tarter follows:]
  Prepared Statement of C. Bruce Tarter, Director, Lawrence Livermore 
             National Laboratory, University of California

                            OPENING REMARKS
    Mr. Chairman and members of the committee, I am the Director of the 
Lawrence Livermore National Laboratory (LLNL). Our Laboratory was 
founded in 1952 as a nuclear weapons laboratory, and national security 
continues to be our central mission. Livermore is a principal 
participant in the Department of Energy's Stockpile Stewardship 
Program, heavily involved in programs to prevent the proliferation of 
weapons of mass destruction, and engaged in energy, environmental, and 
bioscience R&D as well as industrial applications of our core 
technologies.
    Our National Security mission and safeguards and security are 
inextricably linked, and we take both of them very seriously at 
Livermore. We cannot carry out our National Security mission 
effectively without appropriate protection of classified and sensitive 
information and materials. Like National Security, safeguards and 
security continues to evolve in terms of requirements and objectives. 
We have an extensive security and counterintelligence infrastructure in 
place at our Laboratory, and we continually make adjustments and 
upgrades to address new threats and concerns. Through a process of 
internal self-assessments, technical consultants, and external reviews, 
we ensure our readiness to deal with a broad spectrum of threats. At 
Livermore, we believe our Special Nuclear Materials (SNM) and sensitive 
and classified information are secure.
    The review recently conducted by the Office of Security Evaluations 
(OSE) was helpful in identifying areas for improvement. The OSE 
concluded that in two key areas, Physical Security which deals with the 
technical systems that help protect Special Nuclear Material, and 
Classified Cyber Security, which deals with the protection of our 
classified computing networks, the Laboratory received the highest 
possible rating.
    That is not to say we do not have work to do. Opportunities for 
improvement were noted in all areas of the OSE report, and the 
Laboratory is firmly committed to addressing them. I would like to 
assure you that the concerns raised in the OSE report are receiving 
high priority, and resources are being made available by the Laboratory 
to address them.
    We have invested heavily in enhanced employee training in security 
at Livermore. In April, we underwent an intensive two-day cyber 
security stand-down in which we addressed not only cyber security, but 
also conducted formal sessions on general security requirements and 
counterintelligence. In June, in response to Secretary Richardson's 5-
point Security Immersion Program, we ceased all normal operations for 
two additional days of security training. Our employees were fully 
engaged in these training programs, and have made many suggestions for 
further improving security.
    One concern raised by the OSE team had to do with the mixed Q and L 
clearance environment in the Limited Area of the Laboratory. In recent 
years, DOE's goal has been to reduce the number of Q clearances. This 
has been accompanied by an increase in the number of individuals having 
an L clearance. These are individuals who are allowed physical access 
to the Limited Area but who do not have access to weapons data. For the 
record, I would like to note that there are no foreign nationals at 
LLNL with an L clearance. Any LLNL foreign national visiting the 
Limited Areas has always required an escort. Within the Limited Area, 
we rely largely on administrative controls to prohibit access to 
classified information by L-cleared personnel. We believe that, 
although well intended, the reduction in Q clearances has lessened 
security, and we would like to see funding made available for Q-
clearances for all personnel requiring access to the Limited Area of 
the Laboratory.
    The Annual Report to the President on Safeguards and Security rated 
LLNL ``Unsatisfactory'' in the area of Materials Control and 
Accountability (MC&A) and ``Marginal'' overall. More recently, the 
April/May OSE Inspection rated LLNL ``Marginal'' in this MC&A area. In 
a letter to Assistant Secretary Vic Reis dated May 14, 1999, I 
personally assured him that the Laboratory was committed to rectifying 
the rating in MC&A before the end of the calendar year. I would like to 
note that we are on schedule in our action plan, with most actions 
already complete. Similarly, in that same letter to Dr. Reis, I 
committed to funding and implementing the LLNL Tri-Lab INFOSEC Action 
Plan as approved by DOE. Again, many actions have already been 
completed and we continue to be on schedule. I note these formal 
commitments in that they also address some of the concerns raised in 
the OSE evaluation.
    The OSE team was careful to note in their report major improvements 
made in the Safeguards and Security program to address past concerns, 
and these improvements are continuing. There have been important 
technical upgrades to the Perimeter Intrusion Detection and Alarm 
System (PIDAS) that surrounds our Superblock, which contains our 
Plutonium facility, to provide early detection of both airborne and 
bridging attacks. We have recruited and put in place an offensively 
trained Special Response Team having the training necessary to 
implement a recovery or recapture action. One hundred percent searches 
are conducted at material access area portals in the Plutonium 
Facility. Over 100 simulations of adversary attacks have been 
completed, and we are continuing to refine our simulation methodology, 
attack scenarios, and defensive strategies. We have engaged an external 
advisory group of very senior former military and FBI experts to advise 
us in this work. Since the completion of the OSE SE we have committed 
additional officers to the Superblock and taken other compensatory 
measures to assure the security of our SNM assets.
    Other improvements noted in the OSE report include the installation 
of an intrusion detection system in a building inside the Limited Area 
used for the storage of classified non-SNM weapons parts. Alarm systems 
are now in design for two other facilities in the Limited Area. Foreign 
Ownership, Control or Influence (FOCI) reviews of all contractors have 
been completed. A baseline inventory of plutonium has been completed, 
and improved procedures to ensure effective and timely accounting for 
any inventory differences have been put in place.
    In the area of cyber security, we have already implemented many 
elements of the Tri-Lab Committee's ``nine point plan.'' For example, 
steps have been taken to ensure the physical incompatibility of 
removable media between classified and nearby unclassified computer 
systems. Scanning of outgoing e-mail has been instituted, and funding 
has been committed for implementation of a multi-level system that will 
separate sensitive unclassified computer processing from the remainder 
of unclassified processing. The frequency of vulnerability scans of 
network computers is being increased, and unclassified archives are 
being scanned for classified content. To date over 4 million files have 
been scanned, and no classified content has been found. Procedures for 
authorizing access to unclassified computers by foreign nationals have 
been tightened, and today no foreign nationals have access to Livermore 
unclassified computer networks without having gone through an indices 
check and having a formal computer security plan approved by the 
Laboratory. All dial-up access by foreign nationals is routed through a 
common terminal server which has special intrusion detection software.
    In summary, safeguards and security go hand in hand with our 
National Security mission at Livermore. We are committed to an 
excellent safeguards and security program, and have been taking, and 
will continue to take, the steps necessary to achieve it.

                     PHYSICAL SECURITY AT LIVERMORE
    Livermore's security construct is based on a series of defensive 
layers--a graded approach that provides increasing barriers that 
correspond to the increasing value of critical Laboratory assets.
    Clearances, badging, and background checks on Laboratory employees 
(including subcontractors) constitute a first line of defense. Those 
people with access to classified assets undergo background 
investigations associated with DOE Q, L or sensitive compartmented 
information (SCI) clearances as appropriate. Reinvestigations are 
scheduled automatically at five-year intervals or as needed on a for-
cause basis.
    Livermore uses a defense-in-depth approach to physical barriers--
fences, doors, repositories, and vaults. The Laboratory's outer 
perimeter fence provides the basic physical protection to U.S. 
government property. Additional protection is provided for ``limited'' 
areas where classified assets are present. The level of clearance 
required to freely transit these areas is also higher. Classified parts 
and materials are provided additional physical protection and access 
control. Significant quantities of special nuclear material receive the 
highest level of protection, with vault-like physical protection as 
well as aggressive armed defense and response capabilities.
    At each physical barrier (e.g., fence, building, vault), there are 
various levels of access control. Access control is performed either by 
security officers or automated security access portals. At more 
restricted areas, access is checked against specific access lists. 
Need-to-know is required, in addition to the appropriate clearance, 
before an individual is allowed access to classified assets.
    The Laboratory employs security officers who are fully trained and 
accredited to meet DOE criteria. The level of training varies with the 
assignment (defensive, offensive, or special response). We currently 
have over 40 offensively trained officers in our Special Response Team 
and have a new group beginning academy training next month. Training is 
extensive and performance based. The security force undergoes regular 
performance tests, self-assessments, DOE surveillance, and inspections.
    Physical security is designed into new facilities and facility 
modifications. Detection systems are continuously monitored and 
routinely tested. The Laboratory's security system is prepared for 
armed response to all unauthorized intrusions.
    In the Annual Report to the President on Safeguards and Security we 
received a ``Marginal'' rating overall but, an ``Unsatisfactory'' 
rating in MC&A. The issue involved our inability to meet SNM inventory 
requirements at a time when the Plutonium Facility was shut down to 
address safety concerns, preventing monitoring and measurements. Now 
that safety concerns have been addressed and the facility reopened, we 
have resumed all special nuclear material measurements and inventory 
monitoring and we believe we will be in compliance with DOE 
requirements.
    We have high confidence in our Safeguards and Security programs and 
in the security of our critical assets. We have implemented technical 
and procedural enhancements to strengthen our physical security, 
remedied material control and accounting deficiencies, and fully 
upgraded our strategy to protect nuclear material at our Laboratory.

                      CYBER SECURITY AT LIVERMORE
    Cyber or computer security is a critical element of Livermore's 
overall security construct. The Laboratory has both classified computer 
networks and unclassified computer networks. The two are separate and 
are not connected. We also have numerous stand-alone computer systems 
and local area networks in both classified and unclassified areas. 
There are no connections from Livermore's classified computers to the 
outside world except through NSA-approved encryption.
    In addition to physical barriers between the unclassified and 
classified computing environments at Livermore, there are need-to-know 
barriers within the classified computer systems. Access to a classified 
computing network does not grant users access to all the information in 
that network. The same need-to-know requirements that apply to verbally 
communicated information and documents also apply to computer-stored 
information.
    Recent concerns about espionage involving computer-based 
information and codes spurred a thorough reassessment of computer 
security at our Laboratory, including threat awareness and training. We 
support the Secretary of Energy's cyber security initiative and are 
contributing to his INFOSEC planning.
    On April 2, 1999, the Secretary of Energy called for a stand-down 
of all classified computing at the three DOE national security 
laboratories. At Livermore, we went even further and shut down all 
classified computing, all co-located unclassified computing, and all 
unclassified supercomputing. The stand-down was the first step of a 
Tri-Lab INFOSEC Action Plan that has been developed and approved by 
Secretary Richardson. The plan consists of nine action items with 
specific scheduled milestones. We have met all milestones to date. We 
will continue working with the DOE Office of Chief Information Officer 
(CIO) to fully implement the Tri-Lab INFOSEC Action Plan and further 
enhance cyber security at the Laboratory.
    In addition, on June 21-22, we conducted a two-day-long Security 
Immersion Program at Livermore to accelerate the security initiatives 
launched by Secretary Richardson in April. Supervisors were instructed 
to ensure that all Laboratory employees complete the program, which was 
directed toward five objectives identified by the Secretary to 
strengthen security at the laboratories, assessing security issues in 
individual work areas, and applying what has been learned to each 
individual's workplace.
    We have taken dramatic steps to focus the attention of all 
Laboratory employees on the threat of foreign intelligence sources as 
related to cyber security. All employees (including those who do not 
normally use computers but could have need or access in the future) 
received special computer security training. We also trained 
subcontractor employees and consultants. All computing was discontinued 
until training was complete for all employees on site. Employees who 
were on travel or leave were trained immediately upon their return. In 
addition, we have since expanded our on-going computer security 
training and threat awareness training for all Laboratory personnel 
using classified computers. This training is unclassified and 
accessible via a website to make it readily available to our employees 
and easy to update.
    Every computer work area and environment at Livermore was evaluated 
and changes were made as necessary to ensure that LLNL classified and 
sensitive computing meet the highest standards of information security. 
In particular:

<bullet> We have also taken measures to preclude the transfer of 
        information from classified to unclassified computers in a 
        single work area by the use of removable media.
<bullet> We have instituted two-person controls over the authorized 
        transfer of unclassified information from classified computers 
        to unclassified computers.
<bullet> Until a more permanent security fix is in place, since April 
        2, 1999, we have temporarily disabled the file interchange 
        system on the classified supercomputer so that it is impossible 
        to transfer files from the classified supercomputers or the 
        archives to an unclassified computer.
<bullet> We also have begun to scan outgoing presumably unclassified e-
        mail as well as computer files for possible sensitive or 
        classified information. To date, we have scanned over 4 million 
        files in our effort to ensure there is no classified material 
        in unclassified computer files. No issues have arisen.
<bullet> We have strong need-to-know controls on our classified 
        network; yet we are investigating ways to provide an even 
        greater level of protection. We are also studying how to apply 
        these same concepts to the unclassified systems to provide 
        better protection to unclassified sensitive information.
In addition, I have also created a Computer Security Policy Board 
comprised of senior managers to both develop policies and advise me on 
matters related to unclassified computer security. (Classified computer 
security policy is defined by DOE Orders.)
    On our unclassified computing network, we are improving the way we 
protect unclassified sensitive information. Some information must be 
available worldwide, but other information must be protected for 
privacy, proprietary, or export control reasons. We are implementing 
additional ``firewalls'' within our unclassified network to separate 
fully accessible information from unclassified sensitive information. 
For several years, Livermore has had an ongoing program to annually 
scan/audit a sub-set of its unclassified computer systems for security 
vulnerabilities. We have expanded this policy so that now all 
unclassified computer systems must be scanned at least once a year and 
that appropriate correction/fixes to detect vulnerabilities must be 
undertaken immediately.
    The Laboratory has long had a policy of monitoring users accessing 
our computer resources via the Internet. We have now expanded our 
monitoring to cover all dial in access to Livermore computers. Any 
Foreign Nationals (FNs) with dial-in capabilities are monitored. 
Additionally, any FN granted access to unclassified computer resources 
must first have a programmatic justification of need by the sponsoring 
Laboratory program and an approved security plan on record for each FN. 
The Laboratory required that all FNs with access to computer resources 
had to be recertified by June 30, 1999. No one was ``grandfathered'' in 
under our process and those not recertified are being denied access to 
the computer resources. Certification refers to having a programmatic 
justification and a security plan in place. Livermore will require that 
all FNs granted access to Laboratory computer resources must be 
processed through the Foreign Visits and Assignments Office. This will 
ensure that any FN with access to Laboratory computer resources will 
have met the necessary criteria and that their access to computer 
resources is being monitored.
    Finally, our Laboratory is working with personnel at Sandia, Los 
Alamos, and DOE to develop a ``best in practice'' plan for cyber 
security. So far, we have completed a benchmarking of several 
organizations inside and outside of the government to determine what 
others are doing to protect information from both outsiders and 
insiders. This planning activity has an oversight board that is 
currently being staffed with cyber security professionals from industry 
along with the CIOs from the three laboratories.
    Our approach to cyber security goes beyond addressing 
vulnerabilities or problems that we identify or that are brought to our 
attention. We are using this cyber security upgrade as an opportunity 
to apply our multi-disciplinary approach to science and technology to 
become a model for cyber security. Leading-edge cyber security is vital 
to our programmatic missions and is an area where we can leverage our 
expertise to enhance national security in the broadest sense.

                            CLOSING REMARKS
    Accomplishing our national security mission requires outstanding 
science and technology. Simultaneously, we must ensure that the 
application of that science and technology to national security is 
protected at all levels. We have long recognized the inherent challenge 
involved in protecting national security information while fostering 
the interchange of ideas required for cutting-edge science and 
technology. Indeed, to a considerable degree, the nation's security 
rests on the technological advances that arise from the world-class R&D 
conducted at Livermore and the other national security laboratories.
    A multi-faceted security apparatus is in place at our Laboratory, 
including physical security, operational security, personnel security, 
information security, communications security, cyber security, 
counterintelligence, and employee security awareness. We continually 
make adjustments and upgrades to address new threats and concerns. We 
take strong positive action on security and counterintelligence issues, 
whether they are anticipated or identified by us or others, or are 
brought to our attention in the form of executive or departmental 
orders or inspections. Proactive and effective security and 
counterintelligence allows us to meet the challenge of ensuring 
national security while operating in a global world.The recent 
evaluation conducted by OSE noted many improvements to LLNL's security 
system while identifying areas for further improvement. We have 
prepared an aggressive corrective action plan that, technology 
permitting, will resolve any issues by the end of the year. I have 
committed the resources and established the priority to ensure that 
this plan is executed. Corrective actions have already been taken on 
many issues and, as appropriate, compensatory actions are in place. I 
am confident that at LLNL, our Special Nuclear Material and sensitive 
and classified information are secure.

    Mr. Upton. Thank you. Dr. Weigand, would you like to 
comment?

                    STATEMENT OF GIL WEIGAND

    Mr. Weigand. I will make a set of very brief comments. I 
would like to give you the opportunity to ask me any questions 
that you would like.
    Good morning, Mr. Chairman, and subcommittee members. I am 
Dr. Gil Weigand. I am the Deputy Assistant Secretary for 
Research Development Simulation and Defense Programs. That is a 
slightly different title than you utilized. We are in the 
process of reorganization, as you are well aware, trying to 
define line management a little bit better, and two 
organizations have been combined and now I am responsible. I 
have been in this position for 8 months and this position is 
responsible for the laboratories.
    I was put in this position because I bring to that position 
industry and DOD program management experience. As I indicated 
in the July 1 testimony to the subcommittee, Defense Programs 
recognizes that our job is to fix the problems. We agree 
substantially with the issues identified by Mr. Podonsky and 
his team and have taken both immediate and interim actions to 
address their concerns. I want to point out that since taking 
this position in this area that involves Livermore and the 
security, I have put in place no less than four corrective 
action plans. And those corrective action plans have milestones 
that have weekly or monthly obligations by the laboratory, and 
to date the laboratory has not missed a single one of them.
    I also, when finding out the results from Mr. Podonsky, 
before he even left the site we were in the process of doing 
what I call a path forward plan, which was an immediate layout 
of the plan that ultimately became part of the broader planning 
for corrective action on this in the area of special nuclear 
materials. It is extremely important that we protect those 
materials, but it is also extremely important that I have those 
facilities available and open to me, since I am equally 
responsible now for the facilities and for the conduct of the 
research and development at the laboratories. A draft of that 
plan, by the way, has been reviewed by Mr. Podonsky's team and 
we have incorporated their comments.
    As a result of the cybersecurity concerns, we directed the 
formation of a cybersecurity integrated security management 
plan. The first step is the development of a plan by August 1 
which will create the most aggressive, across-the-board advance 
in cybersecurity at the labs. Not on my account. That will not 
be me that is basically saying that, but by the account of some 
of the Nation's foremost experts in cybersecurity.
    The management team is headed by Bill Crowell, former 
deputy director of NSA. Last the Department, at the direction 
of Secretary Moniz, have taken parts of the corrective action 
plans that we have created and incorporated those into the 
Department's goalposts plan which will result in a green 
designation for safeguards and security at LLNL, the Livermore 
labs, by the end of the year.
    As you recall, Mr. Chairman, Bill Hensley and I briefed you 
in the last hearing on some of those actions and we will be 
happy to more extensively amplify on those in the closed 
session. The detailed are classified.
    Since the July 1 hearing, the corrective action plan has 
been finalized, with specific milestones assuring the concerns 
identified by Mr. Podonsky are appropriately addressed by the 
end of the calendar year. Since I now have a completed and 
corrective action plan, I intend to also implement some 
measures by which there is accountability. And I intend to hold 
both Federal managers accountable and laboratory managers 
accountable.
    In addition to that, I have directed that there be the 
creation of a tracking system to specifically track each issue 
as corrective actions and associated milestones are completed 
or not completed. Mr. Hensley, who directs our security office 
at Defense Programs, has created three viewgraphs that we will 
take up with you in later session. They are very brief, but we 
wanted to give you a status of where we stand.
    Thank you very much for the opportunity to provide you with 
another update on the progress of security, and I am available 
for questions.
    [The prepared statement of Gil Weigand follows:]
   Prepared Statement of Gil Weigand, Deputy Assistant Secretary for 
Research, Development and Simulation at Defense Programs, Department of 
                                 Energy
    Good morning Mr. Chairman and Subcommittee Members: I am Dr. Gil 
Weigand, I am the Deputy Assistant Secretary for Research, Development 
and Simulation at Defense Programs. I have been in this current 
position for about 8 months. I was put in this position because I would 
bring to this position industry and DoD program management experience.
    As I indicated during the July 1, 1999 testimony to the 
Subcommittee, Defense Programs (DP) recognizes that our job is ``TO FIX 
THE PROBLEMS.'' We agree substantially with the issues identified by 
Mr. Podonsky and his team and have both immediate and interim actions 
to address their concerns. I have directed that a corrective action 
plan in general for safeguards and a path-forward plan specifically for 
the special nuclear material areas be developed which addresses each of 
the concerns in Mr. Podonsky team's findings. A draft of that plan has 
been reviewed by Mr. Podonsky's team and we have incorporated their 
comments. Furthermore, as a result of cyber-security concerns, I 
directed the formation of a cyber-security integrated security 
management plan. The first step is the development of a plan by August 
1 which will create the most aggressive across the board advance in 
cyber-security at the labs, not by my account, but by the account of 
some of the nations foremost experts in cybersecurity. The management 
team is headed by Bill Crowell, former Deputy Director of NSA. Lastly, 
the department under the direction of Undersecretary Moniz we have 
created plans, the Department's Goal Posts Plan, which will result in a 
``green'' designation for safeguards and security at LLNL by the end of 
the year. As you will recall, Mr. Hensley and I briefed you during the 
last Hearing on some of those actions.
    Since the July 1, 1999 Hearing, the corrective action plan has been 
finalized with specific milestones for assuring the concerns identified 
by Mr. Podonsky are appropriately addressed by the end of the calendar 
year. A tracking system is being developed to specifically track each 
issue, its corrective action(s), and associated milestones.
    Mr. Hensley who directs the security office at Defense Programs 
will conclude our time here by providing you with a three slide summary 
of the corrective action plan's status. We will provide for the record 
the classified detailed corrective action briefing.
    Thank you very much for the opportunity to provide you with another 
update on our progress in security. Mr. Hensley please provide the 
committee with you status report.

    Mr. Upton. Thank you. Dr. Turner, do you have something you 
would like to add?

                    STATEMENT OF JAMES TURNER

    Mr. Turner. Yes, sir, I do. I appreciate the opportunity to 
be here. I would like to start with some summary statements and 
then step back from that to give you a quick overview of our 
role as a field element.
    First of all, back in April, Bruce and I, along with some 
others, were involved in a video teleconference with the 
Secretary. At that time I gave him my personal assurance that 
we would do everything that was necessary to correct the items 
that were found in the 1998 Report to the President, as well as 
the things that Glenn's team came up with.
    I saw the Secretary last week at an event and personally 
reiterated my assurance. I spent part of last week going over 
the issues regarding storage of classified parts. We were 
briefed on the upgrades to the alarm system that was being put 
in place, as well as continuously tracking the corrective 
action plan. All the items are on track in that corrective 
action plan. They are being completed on time. And I think this 
represents a commitment from all of us at the table to make 
that happen.
    That being said, let me step back for a moment and talk 
about our role and responsibility as a field element and the 
team that we have here today. First of all, we're the 
contracting officer for Lawrence Livermore National Laboratory. 
In conjunction with headquarters, we set expectations for the 
laboratory in a number of areas, including security, and we 
assess their performance annually. We also provide Federal 
oversight, and in that role we have the line management 
function in safety and security at the lab. We provide 
assurance to headquarters that not only are the provisions of 
the contract being met, but also DOE policy objectives are 
being met by the laboratory.
    In the implementation of that security role, we develop an 
annual a site safeguards and security plan which provides a 
protection strategy for the laboratory as well as specific 
performance measures in the contract on which the laboratory is 
graded. We have an onsite presence which means that on a daily 
basis people are walking through the facilities, checking 
things and looking at how things are being done to understand 
what the laboratory is doing. And, on occasion when it is 
necessary, there are findings and concerns that are developed 
out of that but it also provides us a direct way to track and 
validate that corrective actions are in fact being done.
    There is an annual survey report which summaries of these 
daily operational awareness activities. The report goes into 
the contract assessment as well as inputs provided to 
headquarters. We, in turn, are overseen by headquarters. 
Defense programs is our boss for everything that goes on at 
Livermore. That is very clear to us. We have a management 
agreement that has been signed with Gil Weigand, and there is 
also another document that has been signed which has been 
presented to Vic Reis for signature that spells out roles and 
responsibilities for our office and defense programs.
    We also appreciate the input from the Office of Security 
Evaluations, Glenn's office, because they provide us with 
increased confidence in what we're doing and what we're 
finding. They also share with us their experience from other 
parts of the complex. They see the whole picture while we only 
see a part of it, and it is best practices that we can 
incorporate.
    We have reported on some progress at the July 1 briefing. 
Since then, there has been additional progress. Glenn talked 
about the progress that's been made in the protection strategy 
for Superblock. Also, the laboratory has completed the second 
of three bimonthly inventories for materials control and 
accountability. We wanted them to complete three before we 
would go back and look at our evaluation. They are also 
upgrading the alarm systems for the storage of classified 
parts.
    As far as my role is concerned, I am a physicist. I have 
been at Oakland for 5 years. I have been the manager there for 
4 years. Prior to going to Oakland, I was the director of the 
Defense Programs Office of Nuclear Weapons Security, and in 
that capacity I had the responsibility for safety, security and 
use control. So for me, it is more than an intellectual 
exercise, it is something that I feel, something I live and 
something I sincerely believe.
    I am out at Livermore at least 1 day a week. We have weekly 
meetings with our site manager where we talk about what is his 
assessment of how we're moving on the corrective action plan. I 
meet once a week with Livermore senior management and we 
discuss security--an item on that agenda is always the 
corrective action plan.
    Again, speaking for the office, I will give my personal 
assurance to the Secretary as well as provide it to you, that 
we will do the things that are necessary to get the lab green 
or satisfactory by the end of the year.
    I would also like to take the opportunity to introduce the 
members of our team that are here today. First of all, Marty 
Domagala, our Deputy Manager is here. He led the team that came 
back for the July 1 briefing. Jim Hirahara, our Assistant 
Manager for Operations and Safe Management. One of his 
responsibilities is the University of California contract. I 
understand there were some questions that came up the last time 
about that. And also Rich Mortensen, our Director of Safeguards 
Security. With that, I am happy to answer any questions that 
you may have.
    Mr. Upton. Terrific. Having completed our witnesses' public 
statements, the Chair will recognize himself for a unanimous 
consent request and to offer a motion.
    Mr. Stupak. Mr. Chairman, before we do that, I hate to 
interrupt you, but Dr. Weigand and Dr. Turner both had 
statements before them. We never received copies of those. 
Could we get copies of those statements I would like to look at 
the in the future?
    Mr. Weigand. Absolutely. I was not asked to provide--and I 
apologize for not thinking forward on that.
    Mr. Turner. I was under the understanding that an oral 
statement--but we will certainly provide.
    Mr. Upton. Terrific. Thank you. Without objection, staff of 
the majority--my motion is this: Without objection, staff of 
the majority and minority parties may be recognized to question 
witnesses for equal 30 minute blocks pursuant to clause 2(j) of 
rule XI of the Rules of the House. Is there objection? Hearing 
none.
    Mr. Barton. Mr. Chairman?
    Mr. Upton. The gentleman is recognized.
    Mr. Barton. You want the staff to question the witnesses in 
this hearing or later on?
    Mr. Upton. Later on. It will be part of the hearing.
    Hearing none, so ordered.
    Further, the Chair moves that pursuant to clause 2(g) of 
Rule XI, the Rules of the House, the remainder of this hearing 
to conducted in executive session to protect information that 
might endanger national security. Is there discussion on the 
motion? If there is no discussion, pursuant to the rule, a 
recorded vote is ordered.
    All in favor of moving to executive session will indicate 
by saying aye.
    Opposed, say nay.
    The Clerk will call the roll.
    The Clerk. Mr. Barton.
    Mr. Barton. Yes.
    The Clerk. Mr. Barton votes aye.
    Mr. Cox.
    [No response.]
    The Clerk. Mr. Burr.
    Mr. Burr. Aye.
    The Clerk. Mr. Burr votes aye.
    Mr. Bilbray.
    Mr. Bilbray. Aye.
    The Clerk. Mr. Bilbray votes aye.
    Mr. Whitfield.
    [No response.]
    The Clerk. Mr. Ganske.
    Mr. Ganske. Aye.
    The Clerk. Mr. Ganske votes aye.
    Mr. Blunt.
    [No response.]
    The Clerk. Mr. Bryant.
    Mr. Bryant. Aye.
    The Clerk. Mr. Bryant votes aye.
    Mr. Bliley.
    [No response.]
    The Clerk. Mr. Klink.
    Mr. Klink. Aye.
    The Clerk. Mr. Klink votes aye.
    Mr. Waxman.
    [No response.]
    The Clerk. Mr. Stupak.
    Mr. Stupak. No.
    The Clerk. Mr. Stupak votes no.
    Mr. Green.
    [No response.]
    The Clerk. Ms. McCarthy.
    Ms. McCarthy. Aye.
    The Clerk. Ms. McCarthy votes aye.
    Mr. Strickland.
    Mr. Strickland. No.
    The Clerk. Mr. Strickland votes no.
    Ms. DeGette.
    Ms. DeGette. Aye.
    The Clerk. Ms. DeGette votes aye.
    Mr. Dingell.
    [No response.]
    The Clerk. Mr. Upton.
    Mr. Upton. Aye.
    The Clerk. Mr. Upton votes aye.
    Mr. Upton. The Clerk will report the result.
    The Clerk. Mr. Chairman, on that vote there were 9 ayes, 2 
noes.
    Mr. Upton. Members having voted in the affirmative and a 
quorum being present, the motion is agreed to. Accordingly, the 
Chair declares the subcommittee in recess subject to the call 
of the Chair, pending which all members, staff, witnesses, and 
guests will leave the room.
    The Capitol Police at this point will secure the room and I 
would note that we will come back at 11:05 for members that are 
going to be able to come back.
    [Whereupon, at 10:45 a.m., the subcommittee recessed. To 
reconvene at 11:05 a.m. executive session.]

</pre></body></html>
